<html>
<title> - NATIONAL EDUCATION TESTING</title>
<body><pre>[Senate Hearing 105-262]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-262

 
                       NATIONAL EDUCATION TESTING

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
44-087 cc                    WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057150-2





                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        DANIEL K. INOUYE, Hawaii
JUDD GREGG, New Hampshire            DALE BUMPERS, Arkansas
LAUCH FAIRCLOTH, North Carolina      HARRY REID, Nevada
LARRY E. CRAIG, Idaho                HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
                      Majority Professional Staff
                  Craig A. Higgins and Bettilou Taylor

                      Minority Professional Staff
                              Marsha Simon

                         Administrative Support
                              Jim Sourwine


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening remarks of Senator Arlen Specter.........................     1
Need for a hearing on voluntary national tests...................     1
Opening remarks of Senator Kennedy...............................     2
Strengthening education and empowering parents...................     2
Underlying issues of voluntary national testing..................     3
Opening remarks of Senator Harkin................................     3
Voluntary system of tests........................................     3
Statement of Hon. Richard W. Riley, Secretary of Education, 
  Office of the Secretary, Department of Education...............     4
    Prepared statement...........................................     8
Student enrollment is highest ever...............................     4
Lesson in education: high standards work.........................     4
Solid foundation in math and reading necessary...................     4
Rigorous national tests proposed in basics.......................     5
Proposed tests an extension of NAEP test.........................     5
NAEP measures of fourth grade reading proficiency................     5
State tests use varying standards of achievement.................     6
Broad base of discussion and support for tests...................     6
Voluntary nature of tests........................................     6
FIE authorization basis for testing authority....................     6
National Assessment Governing Board proposed.....................     7
Commitment to raising standards; assessing performance...........     7
Administration of voluntary tests................................    10
Role of Federal versus State government in education.............    10
Differing processes for implementing tests, NAGB.................    10
Testimony and national debate on testing.........................    11
Support for voluntary national tests.............................    12
Test development.................................................    13
Relationship of parental involvement and quality.................    13
Financing the voluntary national tests...........................    13
Tests as a means for more local involvement......................    14
Voluntary basis of proposed national tests.......................    14
National Assessment Governing Board..............................    15
National statistics on students taking algebra...................    15
Participation is voluntary for States and localities.............    16
Voluntary participation of localities............................    17
Development of voluntary national tests..........................    17
Test to be available on Internet.................................    18
Focus on debate should be on who designs the tests...............    19
Basic skills to be focus of proposed tests.......................    19
Teaching methods are not a focus of proposed tests...............    20
Debate on placing restrictions on test development...............    20
Prohibition on development of national curriculum by Department 
  of Education...................................................    21
Benefits of having wide range of testing options.................    22
Remarks of Representative William F. Goodling....................    23
    Prepared statement...........................................    25
Educational area.................................................    27
  


                       NATIONAL EDUCATION TESTING

                              ----------                              


                      THURSDAY, SEPTEMBER 4, 1997

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 8:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Gorton, Gregg, Faircloth, and 
Harkin.
    Also present: Senators Jeffords and Kennedy, and 
Representative Goodling.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. RICHARD W. RILEY, SECRETARY OF 
            EDUCATION
ACCOMPANIED BY MARSHALL SMITH, ACTING DEPUTY SECRETARY

                   opening remarks of senator specter

    Senator Specter. Good morning, ladies and gentlemen. The 
Subcommittee on Labor, Health and Human Services, and Education 
will now proceed.

             need for a hearing on voluntary national tests

    We have scheduled this early-morning hearing because of the 
upcoming vote in the Senate on an issue relating to funding the 
administration's proposals to institute certain testing. This 
is a very, very important issue, and it has come into focus 
only in the course of the last several weeks.
    Congressman Bill Goodling, who has just joined us, who 
chairs the House Committee on Education, had raised his 
concerns and objections to the funding. When we started debate 
on the funding bill for the Department of Education the day 
before yesterday, I was advised that a similar challenge was 
likely in the Senate. And, in fact, yesterday, an amendment was 
offered by Senator Gregg and Senator Coats to preclude any 
funding. And the day before yesterday, our distinguished 
Secretary of Education, Richard Riley, called me and urged my 
support. I said that I needed to know more about the issue.
    I fully appreciate the need to have testing as an integral 
part of our education system. And our education system in 
America has been in a state of peril for many, many years now.
    And after sleeping on it yesterday, I decided to call a 
hearing so that there could be broader currency to the 
Secretary's views on the need for voluntary national testing. 
We are pleased to have Congressman Goodling with us, as well. 
We have invited some others on the national scene, who have 
been opposed to the idea, to have some balance in the 
discussion. But I think we will have that with the views of 
Secretary Riley and the views of Chairman Goodling.
    With that brief statement, I would yield to my colleague, 
Senator Kennedy. I just said to Senator Kennedy that I was 
pleased to be at a hearing with him, where I got to chair it.
    Senator Kennedy.

                   OPENING REMARKS OF SENATOR KENNEDY

    Senator Kennedy. Thank you very much.
    Mr. Chairman, I just want to thank you for, first of all, 
the courtesy of including us in this opportunity to hear from 
the Secretary and Chairman Goodling. We do have that 
opportunity to hear from the Secretary on a number of 
occasions, and have enormous regard for his leadership in 
education. And all of us have a high regard for Chairman 
Goodling, as well.
    So those of us on the authorizing committee who have worked 
with you on education policy are grateful to you, and we want 
to thank you for your leadership in having this hearing.
    We have had a good opportunity to talk with a number of our 
colleagues over the period of the past days, and there is a 
great interest in it. And I want to thank the Secretary and the 
chairman for being here and willing to share with us.
    I would just take 1 minute or 2, because we are really here 
to hear from the Secretary.

             STRENGTHENING EDUCATION AND EMPOWERING PARENTS

    I am a strong supporter of the administration's position, 
because I think what we are really about is enhancing and 
empowering parents. Parents want to know how their children are 
doing. Parents have indicated that in all parts of the country.
    And the real issue that I think we are going to have in the 
U.S. Senate: Are we going to deny them that opportunity by 
prohibiting the Department of Education the chance to work with 
an independent agency of government that has been working with 
parents and business and local communities in developing 
different tests that are being utilized at the present time? 
This is about empowering parents. And this is also, I consider, 
about strengthening education.
    There may be poor parents, but they want to know how their 
children are doing, so that they can be more demanding of their 
schools and try to enhance the educational opportunity for 
their kids. And I think it is Secretary Riley that I have heard 
say so often, it is the children that have low expectations who 
are the ones that drop out. They are the ones that involve 
themselves in teenage pregnancy. They are the ones that involve 
themselves in gangs and drop out.
    This is basically, I believe, an issue with regards to 
enhancing quality education and empowering parents. It is a 
voluntary program, as I know the Secretary will speak about the 
essence of the program itself. But I am very grateful to the 
Secretary for the leadership in this area. I think it is very 
important.
    And I thank the chair.
    Senator Specter. Thank you very much, Senator Kennedy.

            UNDERLYING ISSUES OF VOLUNTARY NATIONAL TESTING

    I think Senator Kennedy accurately articulates the 
underlying educational issue. Perhaps it is a question of how 
the tests are structured, or perhaps a question of who gives 
the tests. I am just not sure.
    I can say this, and I think it is worth just 1 minute to 
note. I mentioned to Secretary Riley when we talked on the 
phone the day before yesterday that there is a lot of concern 
in America--and I hear it a lot in Pennsylvania--about the 
issue of the Federal role. A lot of people are very concerned, 
on the grounds of the Federal Government being intrusive.
    Voluntary national testing is not an easy issue; there is 
no specific congressional authorization or appropriation. Maybe 
it is a matter for the administration, or maybe it is not. It 
is a big, big matter which requires deliberation and attention 
as we go through the legislative process.
    Mr. Secretary, your words here will be very influential, 
because we are on the brink of the vote.
    Senator Harkin arrived at the last second, so before 
calling on you, Mr. Secretary, I will yield to my distinguished 
colleague.

                   OPENING REMARKS OF SENATOR HARKIN

    Senator Harkin. I apologize for being late. And, again, I 
appreciate your calling the hearing, Mr. Chairman, and the 
presence of Senator Kennedy from the authorizing committee, on 
which I also sit.

                       VOLUNTARY SYSTEM OF TESTS

    This is an issue about which we have spoken, Mr. Secretary, 
on regarding the need for having a national system, so that 
parents can voluntarily know just how their kids are doing. I 
think that is what we have to keep in mind--that this is a 
voluntary system. It will enable parents all over this country 
and their children to understand exactly how they are achieving 
and what the results are. That is what we have to keep in mind.
    I am delighted you are here, Mr. Secretary, and I hope that 
we can move ahead with what you have initiated in your 
Department in the past and move ahead to make sure that we have 
a national system of achievement results so that parents know 
just how their kids are doing.
    Thank you very much.
    Senator Specter. Thank you very much, Senator Harkin.
    Welcome, again, Mr. Secretary. The floor is yours.

                  SUMMARY STATEMENT OF SECRETARY RILEY

    Secretary Riley. Thank you, Mr. Chairman, Senator Kennedy 
and Senator Harkin. The time that we are coming together to 
discuss this issue is a very important time in education. Of 
course, it is the back-to-school time. And I would point out--
can you hear all right?
    Senator Specter. We can. You are not as loud as this 
microphone, Mr. Secretary. Perhaps you have to get elected to 
get a better microphone. [Laughter.]
    Secretary Riley. Should I go ahead?
    Senator Specter. Yes; please do.

                   STUDENT ENROLLMENT IS HIGHEST EVER

    Secretary Riley. The fact is that school is starting up. 
More students than ever before are in our Nation's classrooms: 
52.2 million. That number is going on up for the next 9 or 10 
years, and then will plateau at a high level. If we give all of 
these young people in America a quality education, we will 
indeed remain strong and prosperous and free.

                LESSON IN EDUCATION: HIGH STANDARDS WORK

    Education begins with challenging our students to do their 
very best. That is why standards are important--rigorous 
standards that encourage students to work hard and stretch 
their minds.
    If I can sum up everything that I have learned about 
education in three words, I would say this: High standards 
work. That is because schools and students rise to the 
expectations that we set for them. Standards work only, though, 
when they reach the classroom and they reach the student. That 
is very important for this particular discussion.
    I saw this happen, again, just a few days ago when I 
visited Philadelphia. And as you know, you and I talked about 
it, Mr. Chairman. The citywide scores in math, reading, and 
science are on the rise there in 4th, 8th, and 11th grade. And 
why is that? It is because, I am very pleased to say, 
Philadelphia is getting serious about standards.

             SOLID FOUNDATION IN MATH AND READING NECESSARY

    Public education is also doing better in many places thanks 
to tougher standards. But I do not think we need to kid 
ourselves. We still have a long way to go. Most importantly, we 
need to make sure that every young American gets a solid 
foundation in the basics--reading and math. Reading scores have 
remained flat for a quarter of a century. And the results of 
the third international math and science study [TIMSS], show 
that our fourth-graders are below the international average in 
math, even though, at fourth grade, they rated very well.
    President Clinton and I took a look at all of this and 
decided that we needed to take action.
    And that is why we have proposed rigorous voluntary 
national tests in fourth-grade reading and eighth-grade math. 
Philadelphia, along with more than a dozen other major urban 
areas in seven States, have already agreed to participate. I 
spoke about these tests before this subcommittee last April, 
and I am so happy to offer the committee more information about 
them today.

               RIGOROUS NATIONAL TESTS PROPOSED IN BASICS

    Fourth-grade reading and eighth-grade math were chosen 
because these two basic skills are the make or breakpoints in a 
child's education. Let me take just a brief moment to look at 
reading.
    Teachers will tell you that students who cannot read 
independently by the fourth grade often get down on themselves. 
Poor readers become frustrated. They start falling behind. They 
often head down the road to truancy and dropping out. Some even 
begin to make the wrong choices about drugs. We can save these 
young people if we identify who needs help, which schools need 
help, what the help is they need in these basic areas, and then 
give them the assistance that they need.
    Now, let me mention math briefly. Our proposal for an 
eighth-grade math test includes algebra and some geometry. That 
is because the vast majority of experts view those subjects as 
the gateway courses that prepare young people to take college 
prep courses in high school. Currently, only 20 percent of our 
eighth graders take algebra. Yet in many countries, such as 
Japan, 100 percent of the eighth graders take algebra. We have 
got to close the algebra gap or our international competitors 
will move ahead of us.

                PROPOSED TESTS AN EXTENSION OF NAEP TEST

    Our proposal for voluntary national tests is not 
revolutionary. We are simply taking the National Assessment of 
Educational Progress Test one step further. That is a test that 
is out there now and given on a sample basis right now. The 
NAEP, of course, does not test all students; it tests a sample 
for the country and for the 43 States that have bought into the 
State NAEP testing. And it provides no information at all for 
the individual students, for the individual school or the 
individual school district.
    We want to change that. And that is why I call the new 
national test a personalized version of NAEP, because it will 
be used to test individual students in participating schools or 
States. These tests will tell parents and teachers and 
policymakers and students about what it takes to reach national 
and even international standards of achievement--something no 
other test currently does.
    Equally important, these tests will use the rigorous NAEP 
framework and hold students to high standards. High standards--
that is not always a part of other tests.

           NAEP MEASURES OF FOURTH GRADE READING PROFICIENCY

    I have attached a chart to my testimony that illustrates 
this point. You can see that on some State tests, students 
appear to be doing high-level, proficient work, as shown on 
this chart, Mr. Chairman and Senators--Senator Faircloth, and 
others.
    For example, in South Carolina, the State test shows that 
82 percent of our students read proficiently. The NAEP test 
shows 20 percent. In Wisconsin, some of them are closer, but it 
shows how it is all around the ballpark in terms of the various 
State testing mechanisms.

            STATE TESTS USE VARYING STANDARDS OF ACHIEVEMENT

    You can see that in some of these States, the students 
appear to be doing high-level, proficient work. But the 
students really do not do as well when measured by the NAEP 
high standards of excellence. This means that some parents are 
being told that their children are doing A-level work when in 
fact they are doing C-level work, based upon a national scale. 
A voluntary national test, linked to high standards, will give 
parents and teachers a much clearer, more realistic picture of 
how their children are actually doing.
    Please keep in mind that our people are very mobile. They 
move from State to State and school district to school district 
constantly. Perhaps most important of all, these tests will get 
the whole country buzzing about education. They already have. 
And I am very pleased to see all of the debate and the 
discussion that has taken place.
    I have great respect for Congressman Goodling. And he and I 
work closely together on many, many matters. I am sorry we 
differ somewhat on this. But I do think this conversation and 
this discussion about testing is very good.

             BROAD BASE OF DISCUSSION AND SUPPORT FOR TESTS

    I think that I have heard more discussion about it and 
about education generally in the last 6 months than I have ever 
heard. And I think that is a good, bottom-up change that is 
taking place. The American people are ready for this.
    The latest Gallup Poll found that two out of three 
Americans say the national test would improve student 
achievement a great deal or quite a lot. They have been very 
positive about this idea.

                       VOLUNTARY NATURE OF TESTS

    Now, I know that some in Congress and elsewhere have 
expressed concern. The President and I have moved to address 
these concerns. First, let me reiterate that the tests are 
voluntary, as was pointed out by Senator Kennedy and Senator 
Harkin. No State nor school will be required to offer these 
tests as a condition of receiving Federal funding of any kind. 
It is not connected to any other program of any kind.

             FIE AUTHORIZATION BASIS FOR TESTING AUTHORITY

    Second, there is ample authority to fund development and 
use of the test under the fund for improvement of education 
[FIE] authorized by section 10101 of the Elementary and 
Secondary Education Act. This statute expressly authorizes the 
Secretary of Education to support, and I quote, ``nationally 
significant programs and projects to improve the quality of 
education.'' That is in the current authority.
    FIE, as it is called, and similar previous authorities, 
have been used by the U.S. Department of Education under both 
Republican and Democratic administrations for a wide range of 
national and local activities very similar to this initiative. 
And that has been characteristic. And I can give some examples 
of that if you like.

              NATIONAL ASSESSMENT GOVERNING BOARD PROPOSED

    Third, the administration transmitted legislation to 
Congress yesterday which would authorize an already-established 
independent bipartisan board to oversee the test, the National 
Assessment Governing Board, or NAGB. We urge the Congress to 
pass that legislation without delay.

         COMMITMENT TO RAISING STANDARDS; ASSESSING PERFORMANCE

    Fourth, these tests are not part of any attempt to create a 
national curriculum. The test analyzes results. Can the fourth-
grader read? Can the eighth-grader do basic math? They do not 
tell you how to teach math or how to teach reading. It is 
simply a measure of the results.
    Individual tests will not be collected by the Federal 
Government. We will have nothing to do with scores or the tests 
once they have been developed and are being used locally. 
States and school districts will have complete control over the 
results. The tests are designed to help teachers and principals 
and school boards and parents shape their own curricula. It is 
a bottom-up effort.
    Fifth, there are some who say the test will be too 
difficult for children in poorer schools. I am very sympathetic 
to that argument. And I have carefully studied it and listened 
to it. Some wealthier school districts might have an advantage, 
but I will tell you, it is absolutely true, in my judgment, 
that effort and commitment to excellence matter even more. The 
fastest way to turn eager, young students into 16-year-old 
dropouts is to expect too little of them and to dumb down their 
education or keep their parents uninformed about their lack of 
education. That does not serve any useful purpose.
    The process and other issues are important, but, please, 
let us keep our eye on this prize. This morning, Jim Orr of 
UNUM Corp., Chairman of the National Alliance of Business, 
issued a statement that I think said it best. He said there is 
certainly a place for legitimate discussion about details. And 
you and I have talked about that. But these and other arguments 
should not weaken or overshadow our commitment to raising 
academic standards and assessing student performance. He goes 
on to say: Without a national assessment, raising academic 
standards will be, at best, an amorphous goal.
    Mr. Chairman, there is a movement in the Congress now, as 
you know, that would deny States and school districts this 
right to choose whether they want to give this test or not. 
Yesterday, the executive director of the National Association 
of State School Boards wrote a letter to the Members of 
Congress, which said: ``We believe that States should be 
afforded the opportunity to decide for themselves whether to 
take part in these national assessments.''

                           PREPARED STATEMENT

    And I heartily agree with that view. I believe it is time 
to get very serious about education, and do it child by child. 
These tests will help mobilize the American people in what I 
think will be a great national effort to raise reading and math 
achievement.
    Because this is so important for our country, I really see 
it as a patriotic cause. Let us move forward into this next 
century with high education standards, and make sure that we 
meet them.
    Thank you very much.
    [The statement follows:]

              Prepared Statement of Hon. Richard W. Riley

    Mr. Chairman and members of the subcommittee: Thank you for 
this opportunity to appear before you at this very special time 
of year--back-to-school time. More students than ever before 
are in our nation's classrooms--52.2 million. And that number 
is going to keep on growing. If we give all of these young 
people a quality education, America will remain strong, 
prosperous, and free.
    Education begins with challenging students to do their 
best. That's why standards are so important--rigorous standards 
that encourage students to work hard and stretch their minds. 
If I could sum up everything I've learned about education in 
three words, they would be ``high standards work.'' That's 
because schools and students rise to the expectations we set 
for them.
    I saw this happen again just a couple of days ago when I 
visited Philadelphia. As you know, Chairman Specter, citywide 
scores in math, reading, and science are on the rise there in 
4th, 8th, and 11th grades. Why? Because Philadelphia is getting 
serious about standards.
    Public education is also doing better in many other places, 
thanks to tougher standards. But let's not kid ourselves--we 
still have a long way to go. Most importantly, we need to make 
sure that every young American gets a solid foundation in the 
basics--reading and math. Reading scores have remained flat for 
a quarter of a century. And the results of the Third 
International Math and Science Study [TIMSS] show that our 8th 
graders are below the international average in math.
    President Clinton and I took a look at all this and decided 
that we needed to take action. That is why we have proposed 
rigorous, voluntary national tests in 4th-grade reading and 
8th-grade math. Philadelphia, along with more than a dozen 
other major urban areas and seven states, have already agreed 
to participate. I spoke about these tests before the 
subcommittee last April, and I am happy to offer the committee 
more information about them today.
    Fourth-grade reading and 8th-grade math were chosen because 
these two basic skills are the ``make-or-break'' points in a 
child's education. Let's take a look at reading.
    Teachers will tell you that students who cannot read 
independently by the 4th grade often get down on themselves. 
Poor readers become frustrated, they start falling behind, and 
they often head down the road to truancy and dropping out. Some 
even begin to make the wrong choices about drugs. We can save 
these young people if we identify who needs help, which schools 
need help, and then give them the assistance they need.
    Now let me talk about math. Our proposal for an 8th-grade 
math test includes algebra and even some geometry. That's 
because the vast majority of experts view those subjects as the 
gateway courses that prepare young people to take college-prep 
courses in high school. Currently, only 20 percent of our 8th 
graders take algebra. Yet in many countries, such as Japan, 100 
percent of 8th graders take algebra. We've got to close ``the 
Algebra Gap'' or our international competitors will move ahead 
of us.
    Our proposal for voluntary national tests is not 
revolutionary. We are simply taking the National Assessment of 
Educational Progress (NAEP) tests one step further. Right now, 
NAEP does not test all students, and it provides no information 
at all on individual students, schools, or districts.
    We want to change that and that is why I call the new 
national tests a ``personalized version of NAEP'' because they 
will test individual students in participating schools or 
states. These tests will tell parents, teachers, policy makers, 
and students about what it takes to reach national and even 
international standards of achievement--something no other test 
currently does.
    Equally important, these tests will use the rigorous NAEP 
frameworks and hold students to high standards. That doesn't 
always happen with other tests. I have attached a chart to my 
testimony that illustrates this point. You can see that on some 
state tests, students appear to be doing high-level, proficient 
work. But students don't do as well when measured against 
NAEP's high standards of excellence. This means that some 
parents are being told that their children are doing ``A'' 
level work, when in reality they're only getting a ``C'' 
education. Voluntary national tests, linked to high standards, 
will give parents and teachers a much clearer, more realistic 
picture of how their children are doing.
    Perhaps most important of all, these tests will get the 
whole country buzzing. They already have. I think I've heard 
more discussion about education in the last 6 months than I've 
ever heard, and that's the way to make bottom-up change happen. 
The American people are ready for this. The latest Gallup Poll 
found that two out of three Americans say that national tests 
would improve student achievement ``a great deal or quite a 
lot.''
    Now, I know that some in the Congress and elsewhere have 
expressed concern about the tests. The President and I have 
moved to address these concerns. First, let me reiterate that 
the tests are voluntary. No state or school will be required to 
offer these tests as a condition of receiving federal funding.
    Second, there is ample authority to fund development and 
use of the tests under the Fund for the Improvement of 
Education, authorized by Section 10101 of the Elementary and 
Secondary Education Act. This statute expressly authorizes the 
Secretary of Education to support ``nationally significant 
programs and projects to improve the quality of education''. 
F.I.E. and similar previous authorities have been used by the 
U.S. Department of Education under both Republican and 
Democratic Administrations for a wide range of national and 
local activities similar to this initiative.
    Third, the Administration transmitted legislation to 
Congress yesterday which would authorize an already 
established, independent, bipartisan board to oversee the 
tests--the National Assessment Governing Board, or ``NAGB.'' We 
urge the Congress to pass this legislation without delay.
    Fourth, these tests are not part of any attempt to create a 
national curriculum. Individual test scores will not be 
collected by the federal government. States and school 
districts will have control over the results, and they are 
designed to help teachers, principals, school boards, and 
parents to shape their own curricula.
    Fifth, there are some who say the tests will be too 
difficult for children in our poorer schools. Yes, richer 
schools may have advantages, but effort and commitment to 
excellence matter more. The fastest way to turn eager young 
students into 16-year-old drop-outs is to expect too little of 
them and dumb down their education.
    Process and other issues are important, but let's keep our 
eye on the prize. This morning, Jim Orr of the UNUM Corporation 
and chairman of the National Alliance of Business issued a 
statement that said it best. He said, ``There is certainly a 
place for legitimate discussion over details * * *. But these 
and other arguments should not weaken or overshadow our 
commitment to raising academic standards and assessing student 
performance. Without a national assessment, raising academic 
standards will be, at best, an amorphous goal.''
    Mr. Chairman, there is a movement in the Congress now that 
would deny states and school districts the right to choose 
whether they want to offer these tests. Yesterday, the 
executive director of the National Association of State School 
Boards wrote a letter to members of Congress which said, ``We 
believe the states should be afforded the opportunity to decide 
for themselves whether to take part in these national 
assessments.''
    I heartily agree with that view. And I believe it is time 
to get serious about education. These tests will help mobilize 
the American people in a great national effort to raise reading 
and math achievement. Because this is so important for our 
country, I see it as a great patriotic cause. Let us move 
forward into the 21st century with high standards--and let's 
make sure we meet them. Thank you very much.

  NAEP MEASURES HIGH STANDARDS: STATE 1994 NAEP SCORES FOR FOURTH GRADE 
               READING COMPARED TO STATES' OWN ASSESSMENTS              
------------------------------------------------------------------------
                                           NAEP standard  State standard
------------------------------------------------------------------------
Connecticut.............................              38              48
New Hampshire...........................              36              29
Wisconsin...............................              35              88
North Carolina..........................              30              65
Tennessee...............................              27              62
Kentucky................................              26              30
Maryland................................              26              39
Georgia.................................              26              39
Delaware................................              23              14
South Carolina..........................              20              82
Louisiana...............................              15              88
------------------------------------------------------------------------
Source: U.S. Department of Education, State departments of education,   
  National Education Goals Panel.                                       

                   ADMINISTRATION OF VOLUNTARY TESTS

    Senator Specter. Thank you very much, Mr. Secretary. Your 
concluding comment puts this issue on the highest level. I 
agree with you that there is no issue more important in 
education that we confront. It is a matter not only of the 
quality of life of the individual to have the maximum 
educational opportunity, but also to strengthen the Nation as 
we compete globally. There is no doubt about that.
    On a very personal note, I say with some frequency that my 
brother, two sisters and I can share in the American dream, 
because we had the education our parents did not. They both 
were immigrants. They had virtually none. And the issue which 
we face here today is how to achieve better education; testing, 
I think, is necessary.
    The question which I see is: How will the tests be 
administered? Should they be administered by the program which 
the U.S. Department of Education has articulated, through you, 
this morning? Is there a way of maintaining that kind of 
testing at the State level? Or does it have to be done at the 
national level? And how do we come to this point?

          ROLE OF FEDERAL VERSUS STATE GOVERNMENT IN EDUCATION

    There is a furious debate in America today about the role 
of the Federal Government, contrasted with State government--
and contrasted with local government. There is acceptance that 
education is the responsibility of local government and State 
government. And you very carefully said that you did not look 
for a national curriculum. You have emphasized the voluntary 
aspect of the program.
    Even with that, there are serious questions raised about 
the so-called foot in the door doctrine, as to where this is 
going to lead. Substantial funds have been spent. Last year, 
$12.2 million was expended on this program. And this year there 
are plans to spend $16.2 million. And a significant question 
which arises in my mind is whether the Congress ought not to 
have a say and a voice in what we are doing here structurally.

            DIFFERING PROCESSES FOR IMPLEMENTING TESTS, NAGB

    I do not propose to get into any turf battle, as such, 
between the executive and the legislative branches when you are 
doing something as important as educating our children. But 
there is a very fundamental issue as to how we divide 
responsibilities between the Congress and the President, and 
how we divide authority between the Federal Government and the 
States.
    I note that you have sent over legislation just yesterday, 
as you have just said, through the independent, bipartisan 
door. The initial question which I will have is: ``Why the 
distinction between calling on Congress to act on an 
independent, bipartisan board with the action which the 
administration has taken as an executive function of setting 
out these tasks? Is there some suggestion that when you are 
looking for congressional action on the board that there is an 
acknowledgement that it ought to be congressional action?''
    Let me put the question in as pointed a way as I can. What 
concerns will the administration have if this matter received 
the review of the Congress and the Congress acted to authorize 
these tests, aside from the obvious delay that would be 
involved? Suppose the Congress adopted a very fast timetable, 
and we could craft that, perhaps, on the appropriation bill, 
setting deadlines as to our action through the authorizing 
process--perhaps as little as 60 days. It would be pretty hard 
for the Congress to do that, but if we can have a hearing 
overnight, perhaps we could do that.
    What would be the harm in letting the authorizing 
committees of the Congress make a decision on whether this 
testing ought to be undertaken, just as you have called upon 
Congress to decide whether there should be this independent, 
bipartisan board?
    Secretary Riley. Let me speak to that in a couple of ways. 
First of all, we think that time is of the essence. It is very 
important. It will take at least 2 years to get this process of 
developing the tests done, and done properly. We are starting 
with the NAEP test which is available now. Some of you might 
not realize that NAEP is given as a sample test. An individual 
student probably takes only a seventh of all the NAEP items. It 
takes seven different people to take it all. In this way, we 
end up with a good research study.
    This national test is simply taking the NAEP test and 
making it a test where one person takes all seven parts in 90 
minutes. It is not like we are coming from nowhere to create a 
new test. Even at that, it takes 2 years to develop the tests. 
And we think time is of the essence. I used to serve on NAGB 
for some period of time, and I really believe in what they are 
doing. They are a respected group, but current law would not 
permit NAGB to have authority for the national tests. And so 
what we have planned all along is to get this process going, 
and then ask Congress to consider shifting the oversight and 
the policymaking to NAGB. And that is really what we have done.

                TESTIMONY AND NATIONAL DEBATE ON TESTING

    I would point out that we have testified any number of 
times before Congress, before Mr. Goodling's committee, before 
this subcommittee, on the subject of testing. And we have had 
lengthy discussions about it. We have had meetings all over the 
country. The transcripts have been on the Internet. We have had 
all the State people in here; 47 States had people in here for 
an all-day meeting. That meeting was on C-SPAN. When Lamar 
Alexander was here as Secretary of Education, he supported 
development of voluntary national standards without any 
specific authority, based on this general authority that we 
have to do what is necessary, in our judgment, to improve 
education. The language that I read in my statement----
    Senator Specter. Mr. Secretary, let me interrupt you for 
just a minute. We only have 5 minutes per round, and we have 
quite good attendance here today. When you talk about the 
national debate, I think that really is important. And I think 
that the focus which we have today will give greater visibility 
to this issue than perhaps it has ever had, notwithstanding the 
discussions you just referred to.

                  SUPPORT FOR VOLUNTARY NATIONAL TESTS

    While the program is endorsed by the Council of Great City 
Schools, I note that only 15 out of 50 have come forward to 
participate. Only six States have agreed to take part in the 
first round of testing. And I cite that as some suggestion, or 
indication perhaps, of some reluctance, given the very deep-
seated concern about the Federal role in education and whether 
to stop it from becoming intrusive.
    We went through this in Goals 2000; we saved the program by 
delimiting it. While there would be some delay, and I do not 
like delay, would not there be an opportunity for a better 
national consensus if we go through the hearing process and 
focus specifically on the authorizing committees, Senator 
Jeffords, and in the House, Representative Goodling, to have a 
national resolution through the representative democracy we 
have through the congressional action?
    Secretary Riley. Well, first of all, Mr. Chairman, this is 
a voluntary test. States could decide to take it. School 
districts could decide to take it or not. They could decide to 
take it the first year or the second year, or whatever. Seven 
States have come in and said that they want to take the test. 
Numbers of others have expressed extreme interest. Chief school 
officers, and Governors, are very, very interested.
    Although only 15 cities have decided to use the tests, they 
include New York, Philadelphia, Los Angeles, Chicago, Houston, 
and Atlanta, and on and on and on. And also, in the seven 
States, you have Charlotte, you have Baltimore, you have 
Boston. So there is really major interest in American cities. 
And that, to me, is a very good point.
    We all have talked about urban education problems and 
accountability. I think that is very critical. And to have 
major cities come in and say, we want to have our children take 
these basic skills tests, as soon as possible, makes it a 
critical matter in terms of time. So we think that the sooner 
we can carefully get this out there for them, the better 
education will be.
    Senator Specter. Thank you very much, Mr. Secretary. My 
time has expired.
    I yield now to my distinguished colleague, Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    I would like to just go ahead and yield my time at the 
beginning to the ranking member of our authorizing committee, 
Senator Kennedy.
    Senator Kennedy. Thank you.

                            TEST DEVELOPMENT

    Thank you very much, Senator Harkin. And again, thank you, 
Senator Specter. We have increased Federal spending about $3.5 
billion last year. I think most Americans want to know when we 
are going to try and see an enhancement, in terms of education, 
at the local community level. As the chairman has pointed out, 
this is a local responsibility. All of us understand it. States 
have some interest. But our role is if we are going to be 
investing Federal funds in these areas of education--and they 
are very, very limited--most American families want to see how 
that can be enhanced.
    And I agree with you, Mr. Secretary, if you have the--when 
we have the authority to go ahead and have the NAEP test, which 
goes ahead and does the testing--it seems that the 
administration has been very forthcoming, to say that an 
independent group, this NAGB group, which has had the attention 
even with the Department of Education, and is made up of family 
members, it is made up of parents, it is made up of 
schoolteachers, it is made up of local representatives--you 
have made an enormous concession to have them develop this 
test.
    And I would not think you would want to get whipsawed, 
which you are not, to say, look--you are trying to say OK, if 
there are those that do not want the Department of Education to 
do it, we will let the other independent agency do it, and 
then, to get wrapped up and say, well, we need other additional 
kinds of authorization, at a time when I think parents all over 
the country want to see an enhancement of their children's 
education--I think, myself, you are in a strong position.

            RELATIONSHIP OF PARENTAL INVOLVEMENT AND QUALITY

    But I think the basic question is and the case you want to 
try to make is how this test, you believe, will really move us 
toward an enhancement of quality education at the local level. 
I think if we meet that test, then I think we get the 
overwhelming support.
    Why do you believe that if the parents understand how their 
children are doing in the areas of literacy at the fourth grade 
and math at the eighth grade, how this can be a tool to really 
make education quality better at the local level?

                 FINANCING THE VOLUNTARY NATIONAL TESTS

    Secretary Riley. Well, first of all, on the issue that the 
chairman was inquiring about, I want everybody to understand 
that it is the 1999 budget that would have to support the costs 
of the administration of the test, as the President has 
proposed to pay for it the first year. So, really, all we are 
talking about for 1998 is creating an individualized version of 
NAEP as opposed to a sample test. Doing that is not such a 
tremendous leap from what we already do. It is a pretty good 
leap in funding when you then have the test administered. That 
will be in next year's budget, and get all the debate and all 
the discussion.

              TESTS AS A MEANS FOR MORE LOCAL INVOLVEMENT

    If you look back, we have had all the talk about education 
ideas and all the rhetoric about education, and now we have 50 
States working on standards. And they have either gone far with 
it, or some are in an earlier stage of it. I think that is 
very, very encouraging, and it is exciting, and it is working. 
That is what is important.
    Now, if you get standards down into the classroom, down to 
the student, down to the family, as is the case for these 
students in Philadelphia, who were lined up in one of the 
poorest sections of Philadelphia, and these kids, minority 
kids, were standing there with these gold medallions on for 
having read at least 100 books this summer. I am telling you, 
the pride in those kids, you could not believe it. They want to 
take this test. They are asking for it.
    Parents, then, can get involved themselves in this idea of 
being part of a national effort for improvement in education--
high standards, tough work. People are not going to like the 
results on these tests when they hear them. It is going to be 
tough. And the next year, it is going to be better. And the 
next year, it is going to be better. These tests are the best 
way for parents and children to become very much involved in 
this national movement to improve education.
    The control of education is State and local. We are not 
getting into that. Reading and math are basic skills, and the 
tests are voluntary. But they will bring about, in our 
judgment, a national movement for people, bottom up, to get 
involved in their own children's education.

               VOLUNTARY BASIS OF PROPOSED NATIONAL TESTS

    Senator Kennedy. Just really a final question, because I 
know the time is moving on. Just emphasize the voluntary 
aspects of this. As I understand it, States make the judgment 
about whether they want to move ahead with this program, so it 
is completely voluntary for the States. As I understand it, the 
States make a judgment that if certain schools want to opt out, 
they have that kind of flexibility.
    So what we are basically saying is that the States can make 
that judgment about how they want to structure the program. 
They can accommodate local communities. They can even 
accommodate individuals who are setting up some rules, in terms 
of accommodating individuals that desire to have the children 
take it, that are included in the program. But that can be 
accommodated, can it not?
    Secretary Riley. Yes.
    Senator Kennedy. So that every aspect of this is a 
voluntary program. And the question is, I think, and I would 
just be interested in your reaction, are we going to be in a 
position where we are going to block the States from making 
some judgment, local communities, making some judgment, and the 
parents making some judgments in terms of how to try and 
enhance quality education?
    Secretary Riley. Well, I certainly hope not. But districts, 
Senator, as you know, can make the decision to use the test. 
And that is what these big cities--they are the large 
districts--are doing. And if you say, why not some of the small 
ones? It is just that we have not gone to them.
    I am positive that you would find an enormous number of 
districts that would come in and want to take the test. But the 
large cities have just talked among themselves. And I think 
that is a very interesting turn of events--to have the large 
urban areas wanting to have high accountability and high 
standards.

                  NATIONAL ASSESSMENT GOVERNING BOARD

    Senator Kennedy. Just a final question. As I understand it, 
the organization that would establish these tests, basically, 
has been made up of Republicans and Democrats; there is a 
number of appointees that have been made by the previous 
administration. Could you just clarify that makeup of the 
organization.
    Secretary Riley. That is exactly right. I know you have to 
have a Democrat Governor and a Republican Governor. It has to 
be bipartisan, and it is bipartisan. And I know I was doing 
some appointments yesterday, and I know two appointments that I 
made to the board are Republican and two are Democrats. It is a 
bipartisan group, and it has a great deal of expertise. It is a 
group that has the expertise to really know testing. Testing is 
a very complex issue.
    Senator Specter. Thank you very much, Senator Kennedy.
    Senator Faircloth.
    Senator Faircloth. Thank you, Mr. Chairman.
    Mr. Secretary, I am delighted to have you here this 
morning.

             NATIONAL STATISTICS ON STUDENTS TAKING ALGEBRA

    A number of things about this concern me. No. 1, you said 
that only 20 percent of the students are taking algebra. I do 
not know whether that is nationwide or----
    Secretary Riley. That is nationwide.
    Senator Faircloth. Nationwide. Well, how are you going to 
give a test, testing algebra, to eighth-graders when only 20 
percent of them have ever had it?
    Secretary Riley. Well, the States and school districts are 
moving quickly into the algebra area.
    Senator Faircloth. So they are going to have to be moving 
real quickly, as fast as you are moving with this test?
    Secretary Riley. They certainly are. And I think if you 
talk to any educator in America, they will tell you it is the 
right direction to go. Any one of them, and especially a 
conservative educator, will tell you in a hurry it is wrong 
that to have the expectations for American students to be less 
challenging than the expectations for other students around the 
world. The idea that we cannot handle algebra in the seventh 
and eighth grade is wrong. Schools are moving toward algebra 
and some geometric principles in the seventh and eighth grade, 
and I think that is the right way to go.
    Algebraic principles are introduced in elementary school, 
but I am talking about taking algebra itself.

          PARTICIPATION IS VOLUNTARY FOR STATES AND LOCALITIES

    Senator Faircloth. Another question, you say it is 
voluntary. Does that mean to the State, to the school district, 
to the school within the district, to the student?
    Secretary Riley. It is voluntary as far as the State or the 
school district.
    Senator Faircloth. How about the student?
    Secretary Riley. That is up to the State and the school 
district. In other words, we, then, just like any other testing 
matter, we would look to the State and the school district for 
their--they would basically handle how that is done within 
their district. They would do it like other testing is done.
    Senator Faircloth. Well, if you give the student the right 
to opt out of the test, what real benefit is it going to be? 
Because the school is going to want to look good, the eighth-
grade teacher, the fourth-grade teacher is going to want to 
look good. So would not there be a tendency to encourage those 
less likely to do well on the test, just simply to not take the 
test, you go play basketball or go swimming today?
    Secretary Riley. Senator, that would be handled on the 
State and local level. I am not saying how it should be or 
should not be. That is up to them. And normally, for a test 
that is given in a local school district, they would not have a 
test and let people pick and choose who is going to take the 
test. Just like a child who takes a test in algebra in the 
homeroom. That is up to the local school district as to how 
they handle the test.
    What I am saying is they can do it basically like they do 
other tests all the time. And it is up to them. But as far as 
we are concerned, the voluntary part is at the State or the 
school district.
    Senator Faircloth. Well, the thing that I am getting at, 
Governor Riley, is this: In all likelihood, Hiltonhead schools 
would want to take this test. In all likelihood, Aynor would 
not want to take the test.
    Secretary Riley. Well, I do not know that I can agree with 
you at all. I appreciate what you are saying. And you are 
really into my home territory now. [Laughter.]
    I know both districts very well. But what I would say to 
you is look at these big cities. They want the test. And they 
are the very people who others would have said years ago would 
run from the test. They are worried about where their students 
are and whether they are learning to read and do basic math? 
And that is why I say this is so encouraging. It is right 
exciting.
    I was in Philadelphia, and I keep mentioning it because I 
was just there, and they had in the school district there--in 
the city of Philadelphia--an increase in the number of students 
taking their test of some 16 percent. And of that 16 percent, a 
good portion of them were children who had English as a second 
language or were disabled or in special education. It is 
amazing how they are expanding out. They have worked and worked 
to make sure all of their kids, as close as possible, were part 
of this process. And even at that, it was up--the scores were 
up.
    And I think I associate a lot of that with standards and 
with getting serious about education and hard work and parents 
getting involved and children reading books, and the kind of 
thing that I saw going on there. Many people expect districts 
that automatically do well would want to us the test and that 
others would not, but I think the results are showing just the 
opposite.
    Senator Specter. Thank you very much, Senator Faircloth.
    Senator Harkin.
    Senator Harkin. Thank you very much.

                 VOLUNTARY PARTICIPATION OF LOCALITIES

    Mr. Secretary, I could not help but listen to the questions 
posed by my colleague from North Carolina. It almost seems that 
what he is saying is it would encourage those less likely to do 
well to not take the test. It almost seems to be an indictment 
of local school districts, that they really do not want to know 
how well they are doing, especially poor districts.
    That may be true in some instances, but I have never yet 
met a superintendent--and I have talked to a lot of them in 
poor areas, and at schools with underprivileged children--who 
does not want to know how their kids are ranking with other 
kids around the country, so that they can go to their local 
governing bodies and say, look, we are not doing as well as you 
may think we are doing. And so I do not know anything about 
Aynor--I do not know where Aynor is or what it is about. 
[Laughter.]
    But I would assume that if that is the case here, that the 
superintendent of schools there, those people would want to 
know so that they can go to their Governors and their State and 
their local governing officials and say, look, we need more 
help in our schools because our kids are falling behind in 
those tests. So I would not want to assume that they would not 
want to know.

                DEVELOPMENT OF VOLUNTARY NATIONAL TESTS

    Second, there seems to be some thought that these tests 
have been developed by Washington bureaucrats, that it is just 
all developed by Washington, and it is all going to go from the 
top, down to the States and local school districts. How were 
these tests developed? Who had input?
    Secretary Riley. Well, let me describe some of the process, 
because I think that is important. First of all, you have the 
NAEP process, which is the accepted process, and I think it is 
a very thorough one and a very fair one and a very well-
accepted one. We used the same process here. And, as I say, the 
same kind of thing was done previously, on the same authority, 
by previous administrations.
    Following the NAEP process, then, being very thorough and 
very open, we then went to the Council of Chief School 
Officers. And then they as they do for the NAEP test, 
established committees, very representative and bipartisan 
committees, to then do the blueprint of the test. That is the 
best way I would describe it.
    And then that blueprint is submitted to the test publishing 
companies, who then bid on developing the test--in a very open 
process. And then they prepare the items of the test. There are 
all kinds of ways for that to be overseen. What we are 
proposing is to move the whole thing under NAGB and let them 
handle all the policy as it goes along, which will be very, 
very significant and very important.
    Then the National Academy of Sciences, as the House and the 
Senate have already proposed in the committee reports will 
evaluate the test. It is a very lengthy, complicated process, 
but, the test will not be moved forward until that is done.

                    TEST TO BE AVAILABLE ON INTERNET

    And again, it is all accepted or not. It has been very 
open. Very shortly after the test is given--and I think this is 
very important and I do not think people realize it has never 
been done before--all items on the test would be made available 
on the Internet. Home schoolers could take the test and give it 
to their children. Others could analyze the items and say, this 
was wrong, and write a letter to the editor, or get on the TV, 
or whatever. It will be a wide open process and test.
    That is what we are trying to do to--make it open--so 
parents can feel part of it. This is for their children. It is 
not going to be some private deal, where we cannot show you the 
items, and you do not know why your child did poorly, or 
whatever. The test is going to be out there for everyone to 
use. We think the public will be very pleased that this will be 
a new way of doing business. It will be more open than anything 
that has ever been done in testing.
    Senator Harkin. Mr. Secretary, how does this work with 
Goals 2000 in terms of trying to get the States and local 
school districts to set up higher standards? Now we want to 
come in with the voluntary testing? Does this fit in with Goals 
2000?
    Secretary Riley. Well, it fits in. And Goals 2000, of 
course, deals with establishing national goals and voluntary 
national standards. And that process, of course, was started 
under the previous administration. But we have followed through 
with it. It is the right thing to do. They are strictly 
voluntary, but they set world-class standards for all the 
States to use or not use. They are not connected with any other 
program but hopefully are something that would be helpful to 
the States.
    Some States use a lot of the voluntary standards; some use 
none of them. That does not matter. They develop their own 
State standards. And they receive their Goals 2000 money and 
use it as they want to use it to reach their own standards and 
their own goals. The national tests fit in here. The are 
directed at the basic skills, reading at fourth grade and math 
at the key eighth-grade level. Voluntarily, States can have 
their students take these high-standard tests if they would 
like to.
    And then the parents would know how their children stand, 
not based on some State scale, but based upon a national and, 
for math, international scale. And I think that is a very 
powerful statement.
    Senator Specter. Thank you very much, Senator Harkin.
    Senator Gregg.

           FOCUS OF DEBATE SHOULD BE ON WHO DESIGNS THE TESTS

    Senator Gregg. Mr. Secretary, it is a pleasure to have you 
here today.
    If you are going to have a test--and, first, I do not 
believe this debate is about the question of national testing, 
in my viewpoint. I support a national testing system. What I do 
not support is having the Department of Education participate 
in its development, not because I do not have a great deal of 
confidence in you, Mr. Secretary--I have a tremendous amount of 
respect for you, both as Secretary of Education and as a former 
Governor--but because there are forces who influence the 
Department of Education, who, I believe, have an agenda, which 
is to move education to the Federal level, to create new 
Federal standards and create Federal curriculum, and to 
basically usurp what I consider to be the core, almost, of 
quality education, which is local control.
    And, thus, this issue is not a debate over whether or not 
we should have national tests, although there are some who 
oppose national testing generally, but from my standpoint, it 
is not a question of whether we should have a national test. 
And as the author of one of the amendments that is now pending 
on the issue, I want to make that clear. It is a debate over 
how we design a national test, how it gets designed, how it 
gets initiated, how it gets created and energized.


               BASIC SKILLS TO BE FOCUS OF PROPOSED TESTS


    And I guess the first question that I would have for you 
is, if you are going to have a national test, do not you have 
to have a curriculum you base it on? I mean you cannot test in 
a vacuum. The test has to be based off of some set of facts or 
some set of proposals, or some set of concepts which are agreed 
on in which you ask a question: Did Christopher Columbus 
discover the Western Hemisphere?
    Secretary Riley. You are talking abou history. What these 
tests are is about----
    Senator Gregg. Well, let us go to science.
    Secretary Riley. No; let us go to basics.
    Senator Gregg. Does the Sun go around the Moon, or does the 
Moon go around the Earth?
    Secretary Riley. We are not talking about science either. 
We are talking about math and reading.
    Senator Gregg. Well, let us go to math.
    Secretary Riley. All right, math.
    Senator Gregg. Does 2 and 2 equal 4, or does 2 and 2 equal 
something else?
    Secretary Riley. That is a good example. [Laughter.]
    It does not equal something else. It equals 4.
    We have tried carefully to avoid the very thing you are 
talking about, and not to get into those controversial--
legitimately controversial--areas such as history.
    Senator Gregg. Well, reading and math both have been--math 
has been one of the most extraordinarily controversial teaching 
areas probably of the last 15 years--the question of new math, 
the question of whether or not math would be taught in a 
conceptual way or whether it would be taught the experience 
way, whether you go to the grocery store with the kids, or 
whether you are going to teach them in a rote way, where they 
memorize the tables.
    I know the question has been very highly debated as to 
whether or not you teach multiplication through memorization or 
whether you teach it through experience. So there is--and then 
the manner in which math has certainly been addressed--and 
there has been a considerable debate over the process. And of 
course you have got reading on this level, too.


           TEACHING METHODS ARE NOT A FOCUS OF PROPOSED TESTS


    So I guess my question was, does not there have to be a 
curriculum off of which you base an examination?
    Secretary Riley. Senator, we are talking about the basic 
skills of math and reading. All that is measured on the test 
are the achievement results. You can reach those results in a 
number of different ways. We do not get into how the 
achievement results came about. All the tests will do is to 
measure the results. And if a child reads well, then their 
parents will know that. If they do not read well, then their 
parents will find that out. And if their children have been 
taught with some reading technique, their parents then can go 
in and talk to the teacher about the fact that it does not seem 
to be working with their child. That empowers that parent.
    So what we are talking about is these very basic skills and 
measuring results. We are not in any way saying that you have 
to have been taught reading a certain way. The question is, can 
you read?
    Now, the proposed national tests are tied to the NAEP 
tests, which of course are out there now; 43 States participate 
in the State NAEP test to get State results. But the NAEP tests 
are used with only a sample of students. The NAEP test has very 
high standards, and it also just measures results. So I think 
the basic skills focus of the tests and the fact that we are 
just looking at results and not how the child is taught leaves 
the curriculum and teaching methods up to the local schools.


           DEBATE ON PLACING RESTRICTIONS ON TEST DEVELOPMENT


    Senator Gregg. So if there were a proposal to legislate to 
bar the Department of Education from developing any national 
test in the area of curriculum that might have some objectivity 
or some subjectivity to it, such as history or even certain 
levels of math or science--you are saying that would not bother 
you because you are basically--you are going to limit this to 
the very narrow band of purely objective subject matters, such 
as the first levels of math and the mechanics of reading?
    Secretary Riley. Well, I think it would be a real mistake 
for the Congress to start saying what could and could not be 
done. And then you get into the State and local----
    Senator Gregg. No; I am talking about what the Department 
of Education can and cannot do. I am not talking about what 
could--if some group of nationally affiliated--some affiliated 
national group that works for the local school districts 
decides to develop a curriculum-based exam on the recent 
history curriculum that was put out as a result of the Council 
on the Humanities' proposal, which was a curriculum that I 
think most of us--many of us found to be fairly objectionable, 
since it failed to mention many of the major figures in 
American history at the expense of many minor figures--well, 
highlighting many minor figures in American history--if a group 
of local schools wanted to base their curriculum on that and 
then test on that, that is their decision.
    My point was, would you have an objection to us barring the 
Department of Education, the Federal Department of Education, 
from pursuing development of any testing activity in any area 
that is not purely objective, so that it would meet the 
standards that you have just outlined, which is that you are 
going to just work on an objective system, which is the entry 
levels of math and the mechanics of reading, so we would not 
have the issue of Federal control over curriculum?
    Secretary Riley. I do not think that issue applies to this 
particular matter, because these tests will measure basic 
skills. I would point out that the previous administration, 
which was not me, requested significant testing in a number of 
subjects. I did not go that far. And the President does not go 
that far. And We simply propose to develop tests to assess the 
basic skills in reading and math. The revious administration 
was also involved in setting in motion the history standards, 
which I do not fault them for, but I, like you, did not agree 
with them. I thought it emphasized the low points in our 
history instead of the high points, and that was a mistake.
    But I do not think it is good for Congress to start getting 
into placing limitations on future Secretaries of Education. 
All we are asking for is national tests in the very basic 
skills. And I think it is a mistake to start identifying what 
you can and cannot do in the future.
    Senator Gregg. I think you are making my point for me. 
Because my point is that Congress should not get into this at 
all, and neither should the Federal Department of Education. It 
is not the role of the Federal Government to be designing local 
school curriculum. The local school curriculum is the 
responsibility of the States.
    Secretary Riley. Absolutely.
    Senator Gregg. It is the responsibility of the local 
community. And the question becomes, for us, whether or not by 
pursuing it in this manner, with this initial funding coming 
out of the Federal Government, we are not stepping on the 
slippery slope of moving down the road of national curriculum. 
And I think that before we do--so that we can accomplish the 
goals that you want, which is to have a very narrow testing 
effort, that we should have some sort of Federal congressional 
statement that that is what it is going to be before you pursue 
that course.
    And my time is up.


    PROHIBITION ON DEVELOPMENT OF NATIONAL CURRICULUM BY EDUCATION 
                               DEPARTMENT


    Secretary Riley. Senator, I understand what you are saying. 
And certainly you have a right to that position. I think that 
that is not the way to go. I will say this. The Department of 
Education Organization Act has language saying that it is 
illegal for us to prescribe a national curriculum. That is very 
strong language. And, I think, making sure that is clearly 
understood by everybody, is very important. And as long as that 
language is there and you do not toy with it, then the kind of 
thing you are talking about would not come about.
    Senator Gregg. Well, national testing demands a national 
curriculum to meet the national test. And the question is, what 
are you going to test? However, is it going to move down the 
road toward the curriculum?
    Senator Specter. Thank you very much, Senator Gregg.
    We are pleased to have with us Senator Jeffords, who is the 
chairman of the Senate authorizing committee. We welcome him 
back here. We regret his decision to move to Finance from 
Appropriations. He had been a member of this subcommittee. But 
notwithstanding that background, I welcome you, nonetheless, 
Senator Jeffords.
    Senator Jeffords. Thank you, Mr. Chairman.


            BENEFITS OF HAVING WIDE RANGE OF TESTING OPTIONS


    I do not have any specific statement to make. I would just 
briefly state that I believe that it is important for local 
governments and the States to have available to them options on 
testing in order to meet their own needs. So I do not see a 
problem right now with where the Department is going. I do not 
disagree with Senator Gregg, that it should be narrow, and I 
think it is narrow. States and local governments need help in 
being able to determine whether or not they are providing 
education that is needed and required in the present-day 
society.
    Studies in this area have shown that we are very lacking in 
reading skills and we are very lacking in the capacity to meet 
the demands of skills necessary to meet international 
competition. We are not having adequate math taught in our 
schools, or seeing the results that are required to be able to 
meet the competition in the international area. The States and 
local governments need assistance in being able to determine 
whether or not they are making progress in these areas.
    So, in that regard, after listening to the testimony, I do 
not find a problem with where we are right now. I would agree 
with Senator Gregg, that if we get into other areas, or you get 
into other areas, without specific guidance from Congress, it 
would be incorrect. But I do not have a problem with the 
present situation.
    Senator Specter. Thank you very much, Senator Jeffords.
    Thank you very much, Mr. Secretary, for coming this 
morning. I believe this has been a very, very helpful hearing. 
It has certainly focused the issues for me. And as I say, we 
had deferred a vote on the amendment offered by Senator Gregg 
and Senator Coats yesterday so that we could have this hearing, 
which we scheduled just yesterday. But I think it is very, very 
helpful.
    So we thank you for coming. We know you have commitments on 
the House side. Thank you.
    Secretary Riley. Thank you so much.
    Senator Specter. I would like now to call Chairman William 
Goodling, Congressman from Pennsylvania, from the York area, a 
longstanding and good friend of mine personally. Congressman 
Goodling spoke up on this issue earlier this summer, and we are 
very pleased to have him with us to give us his view on the 
question of Federal funding of these proposed educational 
tests.
    Chairman Goodling, welcome, and the floor is yours.

             REMARKS OF REPRESENTATIVE WILLIAM F. GOODLING

    Mr. Goodling. Good, thank you, Mr. Chairman. I am sorry 
that those that I wanted to educate have left. [Laughter.]
    But, nevertheless, I will do my best with getting the 
message across.
    I was very hurt and very disappointed yesterday. The 
President took time out from his vacation to go to a school and 
indicate that all of this is political. I am very hurt simply 
because I spent 45 minutes with the President, one on one, 
discussing education. I am meeting with the Secretary and in 
conversation constantly, and nothing we do in the area of 
education is strictly political.
    This has nothing to do with politics. This has to do with 
the fact that I have spent a great deal of my life as an 
educator, as a teacher, as a principal, as a superintendent, as 
a supervisor of student teachers for colleges, as a parent, and 
as a school board president. That is why I have real problems, 
not only with the test, but with the way it is being done.
    For 20 years--well, at least 15 years in the Congress--I 
kept telling everyone, do not keep saying, chapter 1 is 
motherhood, ice cream and apple pie. Do not keep saying that 
Head Start is motherhood, apple pie, and ice cream. We have 
many programs out there in which there is no quality 
whatsoever. And when you ask for more money to do more of the 
same, all you are doing is disadvantaging the disadvantaged.
    Now we have made great strides in the last 5 years in 
trying to improve the quality of those programs. And we have a 
lot of good programs out there now. But for 15 years, until 
Steny Hoyer finally joined with me, I was a voice in the 
wilderness.
    Now, why I am opposed to spending $90 million--yesterday, I 
saw $100 million--on what I call Smith's folly? I hate to take 
on the Secretary. He is one of the most decent persons I have 
ever met, and generally, we see eye to eye. And I do not 
believe it is his idea in the first place.
    Why do I feel so strongly?
    We are told that 50 percent of our 16-year-olds do well in 
mathematics, science, and reading. That means 50 percent do not 
do well. Who are those 50 percent?
    Those 50 percent are the same 50 percent of students and 
parents who have been told, after every test, every 
standardized test, every Iowa test, every California test, 
every classroom test--and they have been told the same thing 
over and over and over again: Your children are doing poorly, 
your children are doing poorly. Now, we are going to spend $90 
million more to tell them: Your children are doing poorly.
    And what these parents are saying, and these children are 
saying is, do not tell us we are doing poorly one more time, 
with one more test; tell us, as a matter of fact, what are you 
going to do to help us so that we can become part of the top 50 
percent?
    That is the whole argument that we have here. The argument 
has nothing to do with politics. It is how do you waste $90 
million to tell children what they have heard over and over 
again.
    I had a Senator recently tell me, well, we cannot do much 
with $90 million. Well, let me tell you what we can do for that 
50 percent with $90 million. We can do all sorts of reading 
readiness preschool programs. You can do another 600 family 
literacy preschool programs. You can do 2,500 pre-first-grade 
programs, so that the child who leaves kindergarten, who is not 
mature enough to do first-grade work, who is not reading 
ready--because we now know most all children can read, but they 
tell us when they can read--we do not tell them when they can 
learn to read--we can do all those programs so that they do not 
fail at the end of first grade.
    I told the President when I met with him that his whole 
program is light specifically in two areas. One is teacher 
preparation.
    You made an excellent statement, Senator Faircloth. Why are 
we going to ask these people how well they do in algebra in 
eighth grade if, as a matter of fact, you have not trained the 
first-, the second-, the third-, the fourth-, the fifth-, the 
sixth-, and the seventh-grade teacher to get them ready to take 
a test like that? There is nothing in the program that helps 
the weakest link we have, which is teacher preparation.
    Yesterday, we had before us eight very excellent witnesses. 
One was a first-grade teacher. The only program she had in 
preparation to teach reading was, if you can read, you can 
teach reading. There is not any subject that is more difficult 
to teach than reading. And every other one of those eight who 
are involved some way in reading, and in reading research, have 
said the same thing: There is very little, if any, legitimate 
teaching of reading going on in preparing teachers, or after 
they become teachers, to help them to become better teachers of 
reading.
    And so, again, I cannot emphasize enough, we are going to 
spend $90 million to $100 million to tell children and parents, 
who have been told 1 million times--now, you talk about urban 
education--you wait until you see the vote on Friday about 
urban education and where they come down on this issue. Again, 
they are saying, please, give us the tools, give us the 
teachers, give us the preschool readiness programs to help 
teach children to be reading ready by the time they get to 
first grade.
    Let me mention a few other areas. If you believe that one 
more national standardized test--one more--we spent all this 
money on NAEP, we spent all this money on TIMSS--in fact, if 
you want to read some good news, 22 Illinois school districts 
joined together to take the TIMSS test. Guess what? They came 
out No. 1 in science, No. 2 in math. TIMSS is the third 
international mathematics and science study.
    They are doing these things themselves. If we stay out of 
the road--as a matter of fact, they are making all the reforms 
that are necessary back in the States. If we stay out of the 
road and do not dumb down their curriculum and do not dumb down 
their testing programs, I think they will make it, and so will 
the children.
    But if you believe in one more test--and those who believe 
in one more test are not the 50 percent that are always being 
told they are doing poorly--those who believe in it are people 
like us, who had those reading readiness advantages as a 
preschooler, who did not come to first grade totally 
unprepared. It is those 50 percent we should be concerned 
about. But it is the 50 percent who have had the advantages 
that are making the decisions.
    So if you believe in the test, what do you do first? Well, 
the first thing you have to determine is the purpose. Every 
testing expert will tell you that the purpose has to be very 
narrowly drawn. You cannot test and have it valid for three, 
four, or five different things, and three, four, or five 
different areas.
    Well, I have heard the acting assistant secretary say his 
concern is curricula. How? What does that mean? The Department 
of Education is going to come up with some curriculum. Is that 
what the idea is? I do not know.
    Senator Specter. Congressman Goodling, reluctant as I am to 
interrupt you, we have to conclude the hearing by 10 a.m. We 
have government affairs starting. And I would like to leave at 
least a little time for some dialog, questions and answers.
    Mr. Goodling. OK, let me very quickly then say, first of 
all, you have to know what your policy is, what it is you are 
trying to do, and you have to narrowly define that or you 
cannot do a valid test.
    After you have done that, then you have to determine what 
is it you want to test. Then somebody has to draw up the 
curriculum in order to know what it is you want to test. Now 
you know that.
    Now the next step, of course, is to prepare the teacher. If 
you do not prepare the teacher to teach to the new standards, 
what good is a test? And after you are done with all of that, 
then you take 3 to 4 years to design a test.
    There is not any expert that will tell you that you can do 
it in 1 year's time. And what I heard this morning was really 
frightening, because if is really an extension of NAEP, why was 
it not in the budget when it came up? Why did they not tell us 
that in February? Why did they not give us legislation in 
February to make NAEP an individual test?
    Why did they get around to NAGB, 4 or 5 months after they 
put all this together? Why did the people who are under 
contract, lobby us for 6 months, telling us they were going in 
the wrong direction?

                           PREPARED STATEMENT

    These are questions that have to be asked. We are talking 
about $100 million, which will do nothing to help the 50 
percent who are doing poorly in this country.
    That is a short version of everything I have to say.
    [The statement follows:]
           Prepared Statement of Representative Bill Goodling
    Mr. Chairman, it is a pleasure to appear before the subcommittee 
this morning. I want to thank you for the opportunity to present 
testimony on national testing.
    In developing my views on national testing, I have drawn upon my 
experience as a former teacher, school administrator, and parent. For 
many different reasons, which I will get into in a few minutes, I 
oppose the Administration's proposal for new national tests in reading 
and math.
    Several months ago when the President first announced his testing 
proposal, I made several observations:
  --First, that the proposal represented a significant departure from 
        current education policy;
  --Second, that there was no mention in the Department of Education's 
        1998 budget of the national testing proposal;
  --Third, that the Department had not sent a bill to Congress 
        requesting authorization for the testing.
  --Fourth, that it was not wise for the Department to try to fast-
        track its proposal without the input of Congress;
  --Fifth, that if there were a consensus on testing or if there were 
        to be testing at all, it should come about only through the 
        normal legislative process.
    I would now observe that just last month the Department signed a 
$13 million 5-year test development contract with one year options to 
renew. And just yesterday the Department sent a transmittal letter and 
bill to Congress seeking to turn testing over to the National 
Assessment Governing Board. On the one hand they send a bill asking 
Congress to be involved, but on the other, they sign a full 5 year 
contract with options.
    Their whole proposal up to this point has been designed only by 
Washington bureaucrats at the U.S. Department of Education, Congress 
has had no role, and few in the outside community have either. This is 
nothing short of a recipe for disaster, like every other effort over 
the years on the national, state, and local levels--to impose ``top-
down'' standards and tests without hearing from the parents, teachers, 
and administrators at the local level who know best.
    That is why folks ranging the School Administrators, to groups 
representing millions of families and parents across the nation, to the 
FAIRTEST organization, to the NAACP have opposed or expressed strong 
reservations about proceeding with the President's plan. They recognize 
this for the folly that it is.
    I believe all these things are symptomatic of a deeper issue, and 
that is the flawed assumption that somehow another test will improve 
education. It won't. Standardized tests assess performance; they don't 
generate it. We should put more money into the classroom, not in 
another test. We should focus on the real problems--reading readiness, 
inadequate teacher training, and more parental involvement. That's how 
to improve education.
    I agree with many of the comments in your Labor/HHS Subcommittee 
report. Your report stated ``The Committee was highly dismayed to learn 
of the Department's use of fiscal year 1997 funds to begin a new 
testing initiative without securing prior approval through the regular 
appropriations process.'' I might add ``or the normal authorization 
process.'' It's both an appropriations issue and an authorization 
issue. And we will be dealing with the NAEP and NAGB authorization in 
1998. That is the proper forum for any discussion of new testing 
proposals, not through the Department of Education's internal 
processes.
    Let me explain. The Department claims they have the authority to 
plan, develop and implement the tests. I disagree. The statute on which 
they rely--the Fund for the Improvement of Education--does not contain 
any specific and explicit statutory authority for the tests. And the 
bill that was sent up yesterday does not request such authority. The 
only thing the bill does is refer the tests to the National Assessment 
Governing Board (NAGB) to set policy. If the Administration is serious 
about turning it over to NAGB and the legislative process, then they 
should revoke or suspend the $13 million test development contract, and 
let NAGB start from scratch with their own ideas. Start with a clean 
slate.
    I would also note that the legislative history of the Fund for the 
Improvement of Education once had specific authority for national 
tests, but it was taken out in the early 1990s. So it is pretty clear 
Congress did not intend for the statute to be used to justify national 
testing.
    Mr. Chairman, having said all that, I want to quickly give several 
other reasons why I oppose the Administration's testing proposal. 
Before doing so, let me clarify one item for the record. I am for high 
standards. However, standards are the prerogative of states. State and 
local control is a hallmark of American education and it should stay 
that way. For example, Virginia has some of the highest standards in 
the nation, and they have been developed by the state at the 
grassroots' level. In fact, the American Federation of Teachers has 
even said they are some of the best standards in the land and a good 
example for other states to follow.
    Since 1993, the Department has actively pushed their Goals 2000 
program, which encourages, and provides funds for states to create 
their own standards and tests. In essence, the Administration has 
backed decentralized reform. Now with this new test proposal it appears 
to be backing centralized reform. Why the switch?
    Another concern I have is only 7 of 50 states have said they will 
participate in the tests. If the test is so essential, it would seem 
that more states would be on board.
    Let me also note that new national tests could lead to 
inappropriate and unfair comparisons of schools and students. For 
instance, we already know that suburban students in Upper St. Claire, 
PA will, in all likelihood, outperform students from center city 
Pittsburgh. Why? Students from Upper St. Claire have more educational 
advantages. No reason exists to develop another test to show us the 
deficiencies of disadvantaged students.
    Another issue is new national tests could--and I have carefully 
selected the word ``could''--lead to a national curriculum. In 
developing new assessments, the tendency is to create a new curriculum 
to match those assessments. But like new national tests, a national 
curriculum is something Americans don't want and don't need. Given what 
happened with the Federally-funded U.S. history standards project, we 
don't need to engage in any effort that could lead to a national 
curriculum.
    Finally, just to reiterate, we don't need another test to tell us 
what we already know. Instead of developing new national tests, I would 
rather send dollars to the classroom, bolster basic academics and 
increase parental involvement. I want to direct federal resources to 
family literacy and preschool readiness. And I want to take steps to 
improve teacher training. Those should be our priorities, not more 
testing.
    Thank you very much.

                            EDUCATIONAL AREA

    Senator Specter. Congressman Goodling, thank you very much 
for coming over today. I hear the intensity of your 
presentation. I know you feel very strongly about it. Of 
course, you and I have worked very closely for several decades 
in government and politics, and I know what an excellent 
background you bring.
    I think it might be of interest to people who are listening 
to hear just a little of your own personal background as a 
teacher, beyond your status as a chairman.
    Mr. Goodling. Well, I began teaching in a very rural area, 
and coaching three sports--free, of course, at that time--and 
then became a guidance counselor, and saw all of the problems.
    Senator Specter. How long did you teach, Mr. Chairman?
    Mr. Goodling. Five years as a teacher. And I became a 
guidance counselor, and saw all of the problems of the 50 
percent I am talking about. And then I became a high school 
principal for 10 years, and then a superintendent of schools. 
And I have to admit, as a superintendent of schools, I took 
chapter 1 money, because we did not know what we were supposed 
to do with it, but we knew we were supposed to spend it, and 
did not use it very well, until finally, I decided we know 
which children are going to fail before they get here. We know 
all about their parents. We know all about their brothers and 
sisters. Why do not we take that money and go out and begin 
with preschool work.
    Senator Specter. So your total time in the educational 
area, aggregated, was?
    Mr. Goodling. Twenty-two years.
    Senator Specter. We have set the clock at 3 minutes for 
this round of questioning, so we can conclude in order to move 
on to the next round of hearings.
    Chairman Goodling, on the central concern about Federal 
intrusion, if there is a judgment reached that we need tests, 
would you have an idea as to how we might structure those tests 
so that it maintains the prerogative of local and State 
government without having the concern or potential or foot-in-
the-door concept of Federal intrusion?
    Mr. Goodling. Well, first of all, I think you have to be 
very careful when you talk about something that is voluntary. I 
will guarantee you, when school districts decide to use this 
test, the 50 percent who have had the advantages, parents in 
the next school district will insist that it be used there, and 
that will go on and on and on. That is devious to say that, 
well, first of all, the Department was doing this all by 
themselves.
    And you know, a couple of people resigned from their 
activities, not because they were opposed to national tests, 
but because they were opposed to the direction. I have a letter 
here to the President, signed by at least 400 mathematicians, 
saying that what they are doing is wrong from both ends--the 
direction they are going--and they are for national tests--but 
the manner in which they are doing it was totally wrong.
    Senator Specter. Do you have a way we could get to those 
national tests without having the Federal role?
    Mr. Goodling. Well, first of all, yes, there is no question 
NAGB could have done it from the beginning. There was no reason 
in the world for the Department to be off there by themselves. 
I tried to tell them over and over again, politically it is 
stupid. A national test for individuals is the most 
controversial thing you can talk about in America today. That 
80 percent is now down to 53 percent of those who approve it. 
And you know who the 53 percent are. And it is going down and 
down.
    So, first of all, you have got to get us involved. And when 
they say they have the privilege, under ESEA, to go ahead, 
there is nothing that specifically gives them that opportunity. 
And in the National Statistics Act it is pretty clear what you 
are not supposed to do in relationship to any individualized 
test.
    So let us slow it down so that they do not make the 
mistakes. That is all I am asking. Get us involved. It took us, 
I think, on NAEP--I think it took us something like 3 to 4 
years before we ever finalized NAEP. And that was a sampling. 
Now you are talking about an individual test for all children. 
And we are going to take 1 year. I do not understand. As I 
said, politically, it is stupid.
    Senator Specter. Senator Faircloth.
    Senator  Faircloth. Yes; Congressman Goodling, thank you 
for being here.
    I think the fundamental danger in this is--and I have many, 
many questions about it--but the fundamental danger is the test 
is going to dictate the curriculum in the schools. So, if you 
have Federal testing, you are going to be dictating--that test 
is going to dictate what the schools have to teach in order to 
pass that test.
    Mr. Goodling. Yes; there is no question about it. There is 
no reason to test if you, first of all, do not know what it is 
you are going to test. And then, as I said, you then must 
prepare the teacher to teach.
    Senator  Faircloth. The next question, or statement, is 
that I have great confidence in Secretary Riley. But there are 
many, many people in the bowels of the Department of Education. 
And those that bring influence upon the Department of 
Education, who I do not trust in any degree, nor do I believe 
are headed in the right direction for our children and the 
country, they were the ones that would be influencing the test 
and, consequently, the curriculum that we teach in this Nation. 
And I am opposed to that.
    Mr. Goodling. And, as I indicated, I have all these from 
teachers--300, 400, 500--who believe that it is biased. Because 
they are concerned that the people who are involved in putting 
this together have only one idea about the teaching of math. 
And they are saying, well, first of all, you cannot have the 
child tested on their ability to use a calculator. You have to 
know all about the fundamentals of math. And you cannot have 
just whole math or fuzzy math. You have to have a broad-based 
group of people making that decision.
    And my fear all along has been that, as I said earlier, why 
has this been something in the Department only until we made 
such a fuss; that right before we went on ``Face the Nation,'' 
the Secretary said, well, I would be willing to have NAGB 
involved. Well, of course, you will be willing to have NAGB 
involved. Otherwise, nothing is going to go anywhere if the 
Department is going to build the test, give the test, make all 
the decisions about the test.
    Your idea about, was not all that outrageous, when you 
talked about, how do you get some students not to participate 
because of the tremendous competition now--because that is what 
some of them want to use it for--they want to use it for 
competition.
    And let me say this to my leader from Pennsylvania. One of 
their ideas is to compare school districts. You know Upper 
Saint Clair. I know Upper Saint Clair. Why in the world would I 
compare Upper Saint Clair with Center City Pittsburgh? Is there 
any fairness to that?
    The parents of Upper Saint Clair all have bachelor's 
degrees. Most have master's. Many have Ph.D.'s. Why would I do 
that? It does not make any sense whatsoever.
    So your illustration of you may get some who are sick or 
something, accidentally, so that they do not take the test, it 
just reminded me of something. I was to become proficient on 
the firing line when I was in the service. I was so cross-
eyed--I still am, but nothing like I was--so if they did not 
put me on the end of the firing line, there was no way I knew 
which target I was firing at. And so what they would do is take 
my helmet and put it on some proficient sharpshooter. But that 
did not help me when I got to the Pacific--I will guarantee 
you.
    Senator Specter. Senator Faircloth, did you have one final 
question?
    Senator  Faircloth. I did. Is this test that they are 
proposing pass/fail? Is there a proposal that you pass it or 
you fail?
    Mr. Goodling. Well, they will tell you that it has nothing 
to do with promotion or lack of promotion; that it is just 
information for the parent. And again, I have to tell you, that 
50 percent have already been told a thousand times their 
children are not doing well.
    Senator  Faircloth. Thank you so much, Mr. Chairman.
    Senator Specter. Senator Jeffords.
    Senator Jeffords. First of all, I agree 100 percent that if 
I were to choose where to put the money, I would put it in 
professional development. I have no question but that you are 
correct on that. But I do not think that is the issue here, 
because it is the Department of Education that is making that 
decision. On the other hand, I do feel that we need to know 
where we have to go, in terms of math in particular, in order 
to meet the international competition and equip our people with 
skills.
    The problem we are facing is, of course, social promotion. 
We might as well come right out and say it. We just push these 
kids through without giving them the opportunity to really 
learn how to read, in particular, and do math. So there are a 
lot of better ways to spend money. I do not argue with you on 
that. But I do not think that is the issue we have to face 
here, which is whether we should tell the Department of 
Education how they spend their money. Rather than telling them, 
through the budget process, how to do that, we have given them, 
I think, that flexibility.
    Mr. Goodling. Well, I would respectfully disagree, in that, 
again, you talk about $1 million, and you talk about 50 percent 
of the students doing poorly, and you talk about--take the 
elementary teacher--I said to the Secretary when we were on the 
TV, why would you wait until fourth grade to determine whether 
a child is doing poorly in reading? What are you going to do at 
that point? Very little. It is too late. Why would you wait 
until eighth grade to find out how a child is doing in math? 
What are you going to do about it? Very little at that point.
    But do you realize--I know you realize--elementary teachers 
have to teach all subjects. Ask them how many courses they had 
in mathematics--not the teaching of mathematics--in college. 
Ask them how many math courses they did not take that were 
available in high school. So, again, if we do not work at that 
end, what good does it do to test the child if the teacher is 
not prepared to do the job that they are going to expect them 
to do when they set whatever standards they set that somebody 
is supposed to reach?
    Senator Jeffords. I know that we are going to work together 
on title V of the Higher Education Act to try and face the 
serious problem we have with the lack of professional 
development. I certainly look forward to working with you on 
that. I know we agree on that. There is little I disagree with 
you on, other than whether we have the authority to, or should, 
limit the Department of Education as far as their testing plans 
go.
    Mr. Goodling. What I am basically trying to say, I do think 
we have a responsibility to guide and direct the Department. 
And when we see something going awry, as I believe it is--
because we are putting the cart before the horse--I think they 
should know that. And with all the suspicion now out there as 
to who is putting this test together, who has the 
responsibility to determine how it is done, we should slow the 
process down so that we can take 3 or 4 years, as every testing 
expert tells us you need in order to design a valid test. That 
is all I ask.
    Senator Specter. Thank you very much, Senator Jeffords.
    Chairman Goodling, we are honored to have you here. It is 
an unusual occurrence when someone like you, who is so well-
qualified for the position you hold, being chairman of the 
Committee on Education in the House of Representatives, with 
some 22 years of background in the field.
    I took your temperature this morning. It was pretty hot, 
pretty close to 212, the boiling point, as you looked at this 
issue. And as I had said earlier, we scheduled this hearing 
very rapidly, because it was apparent the day before yesterday 
that the issue would be up for a vote. We put the vote over 
from yesterday so that we could have the benefit of the 
hearing. Again, it is a somewhat unusual procedure to be 
prepared for a vote--almost a violation of legislative 
principles to have the hearing, et cetera--and be prepared.
    We really thank you for coming; it has been very 
constructive.
    Mr. Goodling. Thank you very much for having me. I feel 
pretty passionately about the issue.

                         CONCLUSION OF HEARING

    Senator Specter. Thank you all very much for being here. 
That concludes our hearing. The subcommittee will stand in 
recess, subject to the call of the Chair.
    [Whereupon, at 10 a.m., Thursday, September 4, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject the call of the Chair.]

                                   - 
</pre></body></html>
